WILLIAM PEDUTO
MAYOR

YVONNE HILTON
CITY SOLICITOR

CITY

OF

PITTSBURGH

D EPARTMENT

OF

L AW

C I T Y - C O U N T Y B U I LD I N G

Direct Dial

MICHAEL E. KENNEDY

(412) 255-2025

Associate City Solicitor

April 28, 2020
VIA ELECTRONIC FILING AND U.S. First Class MAIL
Clerk of the Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Dear Sir:
I am writing on behalf of the City of Pittsburgh and its named officials to respectfully request a ninety
(90)-day extension of time to reply to the recently filed Petition for Writ of Certiorari in Nikki Bruni, et al. v.
City of Pittsburgh et al., 19-1184. The City of Pittsburgh requests this extension pursuant to United States
Supreme Court Rules 30.4 and 15. The City of Pittsburgh plans to file a brief in opposition to the petition for
a writ of certiorari, which is presently due on Wednesday, April 29, 2020. With the requested extension the
City’s Brief in Opposition to Petition for Writ of Certiorari will become due to the Court on Monday, July 26,
2020.
The City of Pittsburgh and its officials respectfully request this extension due to the current busy
schedules of counsel, the need to admit another attorney(s) to this Court in order to properly and efficiently
respond, and due to the complications arising due to the current global pandemic. Currently, I am working
on very close deadlines in the following cases in the United States District Court for the Western District of
Pennsylvania: Souroth Chatterji v. City of Pittsburgh, et al., 2:18-cv-00199-CB, in which multiple 30(b)(6)
depositions are being disputed and scheduled. I am also, recently catching up from dedicating a significant
amount of time spent writing an amicus brief to the Pennsylvania Supreme Court regarding the current stayat-home order issued by the Governor of Pennsylvania, Friends of Danny Devito, et al., v. Tom Wolf, Governor, et
al., No. 68 MM 2020. These cases are in addition to the many other cases ongoing in the United States District
Court for the Western District of Pennsylvania.
My colleagues Yvonne S. Hilton and Julie E. Koren, who will serve as co-counsel in this case, are
currently starting the process of becoming admitted to this Court. Attorney Hilton is the Solicitor for the City
of Pittsburgh. Attorney Hilton is currently managing the abundant need for legal advice and action within the
City of Pittsburgh during the ongoing global pandemic. Attorney Koren is also working through discovery in
multiple cases in the United States District Court for the Western District of Pennsylvania including, Marlon
Jackson et al. v. Christopher Goetz, et al., at 2:18-cv-00258, Kyle Sholtis v. City of Pittsburgh, et. Al. 2:19-cv-00332, and

414 GRANT STREET | 313 CITY-COUNTY BUILDING, PITTSBURGH, PA 15219 | 412-255-2015

Bruni
Page 2
April 28, 2020
Kathy Butter v. City of Pittsburgh, 2:19-cv-0080. Attorney Koren is also preparing for oral argument in front of
the United States Court of Appeals for the Third Circuit scheduled Friday, April 24, 2020.

Counsel for the Petitioner, John J. Bursch on behalf of Alliance Defending Freedom, consents only
to a thirty (30) day extension due to concern over when the Court would be able to make a decision on
certiorari. The City of Pittsburgh requests an extension of ninety (90) days to file a brief in opposition to the
Writ in order to arrange our schedules to prioritize this case. The extension is sought in good faith and not to
prejudice any party or to inconvenience or delay the Court.
Thank you for considering the City of Pittsburgh’s request.
Respectfully,
/s/ Michael E. Kennedy
Michael E. Kennedy, Esquire
Associate City Solicitor
Pa. I.D. No. 52780
SCOTUS bar #267667

